<html>
<title> - REVIEWING THE ADMINISTRATION'S FY 2016 BUDGET REQUEST FOR EUROPE AND EURASIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 REVIEWING THE ADMINISTRATION'S FY 2016 BUDGET REQUEST FOR EUROPE AND 
                                EURASIA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

                           Serial No. 114-60

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-126 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Alina Romanowski, Coordinator of U.S. Assistance to Europe 
  and Eurasia, Bureau of European and Eurasian Affairs, U.S. 
  Department of State............................................     5
Ms. Susan Fritz, Acting Assistant Administrator, Europe and 
  Eurasia Bureau, U.S. Agency for International Development......    18
Mr. Daniel Rosenblum, Deputy Assistant Secretary for Central 
  Asia, Bureau of South and Central Asian Affairs, U.S. 
  Department of State............................................    29
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Alina Romanowski: Prepared statement.........................     7
Ms. Susan Fritz: Prepared statement..............................    21
Mr. Daniel Rosenblum: Prepared statement.........................    31
The Honorable Jonathan Stivers: Prepared statement...............    38

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61

 
                 REVIEWING THE ADMINISTRATION'S FY 2016
                     BUDGET REQUEST FOR EUROPE AND
                                EURASIA

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order the Europe, Eurasia, and 
Emerging Threats Subcommittee for this afternoon's hearing on 
the administration's budget request.
    Before I get into the substance of the hearing, I would 
like to express my sympathy for the victims of the devastating 
floods which struck the Georgian capital of Tbilisi this 
weekend.
    Over a dozen people have lost their lives and millions of 
dollars in property damage has been suffered. I am sure my 
ranking member and all the members of the subcommittee join me 
in expressing our condolences to the families of the victims 
and wishing the citizens of Tbilisi a speedy recovery.
    Getting to the matter at hand, the President has asked that 
Congress authorize over $50 billion for international affairs 
programs for Fiscal Year 2016. Over $1 billion has been 
requested for programs of all types in the jurisdiction of this 
subcommittee.
    That is a sizeable increase from roughly $640 million spent 
for Fiscal Year 2014. Given the events in Eastern Europe over 
the past 18 months, much of the increased spending is targeted 
on Ukraine, Georgia and Moldova.
    Yet, let me note that we are currently $18 trillion in debt 
and the debt is increasing every day. So every dollar we use to 
help people in foreign countries places that much additional 
burden on the backs of the American taxpayer, even worse, on 
the backs of America's children who will inherit this debt.
    All government programs need to meet a high standard. But 
foreign assistance particularly, if it is to be given at all, 
must meet the most rigorous standards for accountability.
    Congress has the duty to scrutinize the President's 
requests to make sure it is responsible and that it properly 
supports our nation's international policy priorities.
    As I discussed during the same hearing last year, post-war 
Europe is often cited as a successful example of U.S. foreign 
assistance. The Marshall Plan did succeed. It did so because it 
was part of a larger U.S. approach to restoring Europe.
    The German Government itself, for example, undertook 
reforms to remove extensive price controls and other 
restrictions on trade, production and the distribution of 
goods. That is what helped restore their economy more than any 
aid program.
    I would encourage us all to keep that experience in mind as 
we talk about governments like the one in Kiev, which we are 
currently working so hard to support.
    The United States Government can provide loan guarantees, 
technical assistance programs and training. But if the 
Ukrainians themselves can't sustain the drive to reform their 
country and root out corruption, our efforts will be fruitless.
    Since Moldova gained its independence, for example, the 
United States has spent over $1 billion to help that country 
develop into a prosperous democracy. This year's request for 
Moldova is nearly $50 million, or $20 million over Fiscal Year 
2014.
    During my question time, I hope to hear from the witnesses 
why our aid to Moldova is increasing so dramatically when the 
political parties and corrupt ruling elite in Moldova have 
shown zero real interest in the type of reforms that country 
needs in order to prosper.
    Let me note there is a grave distinction between 
humanitarian assistance and development aid. Of course, we 
should always be ready to respond to natural disasters, perhaps 
like the one that is experienced with Tbilisi--earthquakes, 
floods, those type of natural disasters.
    We owe it to our fellow human beings in being one of the 
most prosperous countries in the world to help out in these 
cases of dire emergency.
    However, development funds can't work if recipient 
countries do not undertake economic reforms. The role of 
government assistance is not, thus, to replace private 
investment.
    Without objection, all members will have 5 legislative days 
to submit additional written questions or extraneous materials 
for the record.
    With that, I turn to our ranking member, Congressman Meeks, 
for his opening statement.
    Mr. Meeks. Thank you, Mr. Chairman.
    I also want to join you in sending out condolences to those 
who were victims--those families victims of the floods in 
Tbilisi. Our hearts and prayers go out to those families.
    Let me also thank you, Chairman, for holding this hearing 
to provide us with an opportunity to examine the 
administration's 2016 budget request and our Government's 
ability to execute our strategy in the region.
    When discussing our fundamental strategy for a Europe 
whole, free and at peace, my attention is immediately drawn to 
the war in Ukraine.
    The country struggled to modernize its economy and the 
fight for its citizens' basic rights. Yet, while my attention 
is drawn to Russia's role in the region and our relationship to 
Russia, I cannot stress enough the importance of the countries 
that are not in the spotlight in today's papers.
    Europe and Eurasia is, after all, a diverse region in terms 
of levels of political and economic development and in 
strategic military concerns.
    I am convinced that the work of our diplomats and aid 
workers in the field ensure that America's interests are being 
protected while bringing peace and prosperity to the region. 
This is--but this project is far from over.
    The overall budget reflects a particularly urgent demand 
that, frankly speaking, may require more resources when 2016 
arrives. I am referring to the situation in Ukraine and the 
economic tightrope the government is currently walking.
    Yes, the reform of the economy must be done by the 
Ukrainians themselves following successive governments' 
failures to reform. But the new Ukrainian Government will not 
be able to meet the rightful demands of its citizens without 
some help.
    With a closing political window, I want to make sure that 
we help a committed government get reform done and get it done 
correctly. Take the Ukraine portion of the budget out of the 
equation, however, and we are left with a relatively small 
budget, given the concerns in other parts of the region.
    A few weeks ago, this subcommittee hosted a lively hearing 
on progress and challenges in the western Balkans. Since the 
hearing, Macedonia continues to stumble through its political 
turmoil.
    The Greek foreign minister has also visited Washington when 
we examined possible energy futures that would affect all 
members of the western Balkan region. Or Serbian prime minister 
visited also to DC to discuss Kosovo and relations with Russia.
    All of this is a way to say that there is plenty of work to 
be done in this region. Are we succeeding in achieving our 
foreign policy goals in the western Balkans, given the budget?
    Meanwhile, in Central Asia we face similar problems but 
with different variables. As the Russian economy reels, 
citizens feel the combined effects of low oil prices, 
corruption and a non-modernized economy and Western sanctions. 
As a result, scores of migrant laborers, many of them men, are 
returning home to Central Asia.
    Kyrgyzstan and Turkestan are especially vulnerable. We are 
not only due--and it is not only due to the local economies 
that rely on remittances as a significant source of income. 
They do rely on remittances as a significant source of income.
    But the economies may not be able to absorb the influx of 
labor. In these countries, having frustrated portions of 
society with nothing that they can do to support their 
families, people will look toward more drastic options to 
express despair.
    And finally, the Caucasus, where USAID has been active in 
various programs in the diverse region. I would like to hear 
how the 2016 budget aims to address the problems that seem 
increasingly difficult.
    It is recent--in its recent summit and rigor our partners 
in the region, the European Union, recalibrated its policy 
toward the eastern partnership, noting the various challenges 
and levels of development.
    As EU and NATO memberships become even less attractive or 
attainable goals in the mid- to medium-term, our assistance 
there becomes much, much more important.
    In conclusion, I look forward to discussing the proposed 
2016 budget with our four colleagues from the State Department 
and USAID.
    It is my goal as ranking member of this subcommittee to 
challenge, nudge and encourage you to make sure our dollars are 
being used to their fullest potential in a diverse region that 
means so much to us as Americans.
    And I yield back.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks.
    Does Mr. Cook or Mr. Weber have an opening statement?
    Mr. Weber.
    Mr. Weber. Yes, sir. Let us get going.
    Mr. Rohrabacher. All right. There we go.
    We have a great panel with us today to help us understand 
this part of the Federal budget and how it relates directly to 
our relations with the countries within our jurisdiction of 
this committee.
    First is Alina Romanowski, who is State Department 
coordinator for U.S. assistance to Europe and Eurasia, a 
position which she took up this past March. She coordinates our 
assistance programs across multiple State Department bureaus 
and government agencies.
    Previously, she served as the deputy assistant 
administrator for USAID's Middle East bureau and held senior 
positions within the Bureau of Educational and Cultural 
Affairs.
    She is a member of the Council on Foreign Relations and 
graduated with a Master's degree from the University of 
Chicago.
    Next, we have Daniel--no, we don't. You are not next. No. 
Next we have Susan Fritz as acting assistant administrator for 
USAID in Europe and Eurasia Bureau.
    She brings over two decades of experience to the table and 
she has served as, for example, USAID mission director in 
Serbia and the deputy mission director for Kosovo. It is good 
to have her back as well before the subcommittee.
    And then we have Mr. Daniel Rosenblum. He was a deputy 
assistant secretary of state for Central Asia from 2008 to 
2014. He served as the coordinator for U.S. assistance to 
Europe and Eurasia.
    Before that, he held numerous positions of responsibility 
within the State Department before joining the executive 
branch. He was a legislative assistant here on Capitol Hill for 
Senator Carl Levin.
    And last but not least, we have Jonathan Stivers, serves as 
USAID's assistant administrator for the Bureau of Asia and 
today will be speaking specifically to the Central Asian aspect 
of his portfolio.
    Mr. Stivers is an 18-year veteran of Capitol Hill and last 
worked for Democratic Leader Nancy Pelosi. So we have two 
veterans over there, you know, both sides of this discussion, 
and he holds a Master's degree in international policy from 
George Washington University.
    I would like to ask all of our witnesses to limit their 
presentation to 5 minutes. Everything else in your opening 
statement can be put into the record and then it will be 
followed by a question and answer period from the members to 
the panel.
    Ms. Romanowski, you may proceed.

    STATEMENT OF MS. ALINA ROMANOWSKI, COORDINATOR OF U.S. 
   ASSISTANCE TO EUROPE AND EURASIA, BUREAU OF EUROPEAN AND 
           EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Romanowski. Thank you, Chairman Rohrabacher, Ranking 
Member Meeks and members of the subcommittee. Thank you for 
inviting me here today to testify on the President's Fiscal 
Year 2016 budget for Europe, Eurasia and Central Asia. If there 
is no objection, I would also like to submit my written 
testimony for the record.
    Mr. Rohrabacher. Hearing no objection, so ordered.
    Ms. Romanowski. Last fall marked the 25th anniversary of 
our assistance to support democracy, political pluralism and 
economic reform in the post-Communist space of Europe, Eurasia 
and Central Asia.
    The results have demonstrated the transformational power of 
U.S. assistance to unleash freedom, security and prosperity 
across a region once shackled by totalitarianism, hostility and 
economic stagnation.
    Since 1990, 12 former assistance countries have joined NATO 
and 11 joined the EU. In Central Europe, 11 former seed 
assistance countries are now fully-fledged partners in opening 
the way toward democracy, rule of law, open markets and human 
dignity for their Eastern neighbors.
    While the success of our assistance had been significant, 
progress is worryingly uneven. The fate of our 25-year 
assistance effort is visibly being tested in Ukraine and 
Russia's actions represent the most serious challenge facing 
the U.S. and our European allies since the end of the Cold War.
    With the current crisis in Ukraine and Russia's attempt to 
shred the values on which the post-Cold War order is based, we 
are redoubling our focus and objectives toward a Europe whole, 
free and at peace and fostering stable, prosperous and 
pluralistic democracies across the region.
    Our Fiscal Year 2016 request for the Europe and Eurasia 
region is $953.3 million and reflects the tough challenges that 
we face in a budget environment with competing global demands.
    We support five strategic objectives. First, keeping faith 
with countries as they chart their own futures in the face of 
bullying from outside actors. Second, supporting these 
countries on their path toward Euro-Atlantic integration.
    Third, bolstering efforts to tackle corruption, build rule 
of law and foster transparent and accountable governance. 
Fourth, deepening and expanding civil society and free 
independent media.
    And finally, fifth, rolling back transnational threats that 
rob the region of its prosperity and undermine its security.
    Since Russia's occupation and purported annexation of 
Crimea, the U.S. has committed $471 million in assistance for 
Ukraine along with providing two $1-billion loan guarantees.
    If Ukraine continues progress on its reform agenda and 
conditions warrant, the U.S. administration will work with 
Congress to consider providing another loan guarantee later in 
2015.
    Going forward, our assistance in Ukraine will target broad 
economic, anti-corruption and energy reforms while 
incorporating civil society, private sector and the public into 
this process.
    In Kiev and European capitals, we are working closely with 
other international donors to avoid duplication and ensure 
complementarity of our efforts.
    Just like in Ukraine, we are supporting Georgia and Moldova 
to pursue clean accountable governance as well as their quests 
to move closer to Europe and counter Russian pressure.
    U.S. assistance is also playing an important role in 
addressing serious transnational threats like organized crime, 
trafficking and foreign fighters from the region.
    To combat these malign influences, our Fiscal Year 2016 
request for peace and security programs for Europe and Eurasia 
is $263.4 million, which is up $51.8 million over Fiscal Year 
2014 levels.
    But our objectives are not limited to post-Soviet space. 
The countries of the western Balkans too are knocking at the 
door of Euro-Atlantic institutions.
    We must continue to offer them a political, economic and 
moral hand in their efforts whether in normalizing relations 
between Serbia and Kosovo or helping Albania push ahead with 
progress on reforms to meet EU standards.
    Our budget request also aims at rooting out corruption. We 
are increasing transparency and accountability in courtrooms 
across Albania.
    In Bosnia-Herzegovina, we are supporting civil society to 
implement a new whistleblowing protection law and in Ukraine we 
are providing technical assistance to help stand up a new 
independent anti-corruption bureau.
    We are also working to reverse the worrying trends of 
democratic backsliding and restricting civil society. Doing 
this requires innovative thinking to ensure that countries in 
Eurasia and the Balkans continue on the path to democracy. Our 
Fiscal Year 2016 request for democracy funding is $193 million.
    As Secretary Kerry said when he testified before this 
committee over a month ago, ``Our budget proposals aren't just 
a collection of numbers. They are the embodiment of our 
values.''
    For 25 years, our assistance in Europe and Eurasia has 
extended those values toward our ultimate goal of completing a 
Europe whole, free and at peace. This budget request continues 
that mission.
    Finally, we remain committed to working diligently, 
effectively and imaginatively with the resources provided by 
the American people in service of our values and our national 
interests throughout the region.
    Thank you for this opportunity and your bipartisan support. 
I look forward to your questions.
    [The prepared statement of Ms. Romanowski follows:]
   
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
                              ----------                              

    Mr. Rohrabacher. The figure you just gave on $193 million 
for democracy development or building, that was over what 
territory?
    Ms. Romanowski. Sir, that is our request for Fiscal Year 
2016.
    Mr. Rohrabacher. For which countries?
    Ms. Romanowski. It is for the region.
    Mr. Rohrabacher. For the----
    Ms. Romanowski. Europe and Eurasia.
    Mr. Rohrabacher. Got it. Okay.
    Ms. Fritz, you may.

 STATEMENT OF MS. SUSAN FRITZ, ACTING ASSISTANT ADMINISTRATOR, 
   EUROPE AND EURASIA BUREAU, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Fritz. Chairman Rohrabacher, Ranking Member Meeks, 
members of the subcommittee, thank you for inviting me to 
testify today on the administration's Fiscal Year 2016 budget 
request for Europe and Eurasia.
    Historically, the United States and USAID have played a key 
role in this region. Over the past 20 years, 12 Eastern 
European countries have transitioned from receiving USAID 
assistance, integrating into the Euro-Atlantic community 
including NATO and the EU, becoming strong allies.
    However, the region's transformation isn't complete. In the 
countries where we continue to work, progress in key areas is 
uneven. Gains are at risk and we are even seeing some 
regression.
    The past year has been challenging. Russian aggression in 
Ukraine and throughout the region threatens peace, stability, 
democracy and prosperity and requires greater U.S. and 
international focus, resolve and resources to meet these 
challenges.
    Still, we see opportunities from Kiev to Belgrade to 
Tbilisi to further Euro-Atlantic integration, democracy and 
economic prosperity. U.S. assistance remains critical to 
countering Russian pressure and to advancing the goal of a 
Europe whole, free and at peace.
    To support these goals, the President has requested $710.2 
million in ESF in Fiscal Year 2016. This assistance targets 
critical needs in Ukraine, supports Georgia, Moldova and the 
Balkans' continued Euro-Atlantic integration and strengthens 
the democratic and economic resiliency of these countries to 
address Russian pressure.
    In Ukraine, USAID has stepped up its efforts to support the 
Ukrainian Government and people during a historic transition. 
We deeply appreciate congressional support that has reinforced 
our efforts and the U.S. commitment to Ukraine.
    USAID's funding supports critical programs in the following 
areas--stabilizing, strengthening and growing Ukraine's economy 
and supporting Ukraine's energy independence; strengthening 
democracy and rule of law; combatting corruption and promoting 
effective governance; and improving the availability and 
effectiveness of health services and containing the spread of 
HIV/AIDS and TB.
    Some key accomplishments and milestones in these areas 
include in energy, USAID provided critical technical assistance 
to help Ukraine keep the lights and heat on this past winter in 
the face of potential energy shortages.
    Last year, USAID provided approximately $11 million in 
support of a successful snap Presidential and parliamentary 
elections. While we have seen progress, the challenges facing 
Ukraine will not be solved overnight.
    The conflict in Eastern Ukraine continues to destabilize 
the country, resulting in over 1.3 million internally displaced 
persons and 5.1 million people in need of humanitarian 
assistance. Ukraine will require a sustained commitment from 
the United States and the international community.
    Turning to Moldova, Moldova has taken significant and 
meaningful steps toward Euro-Atlantic integration but faces 
substantial challenges, particularly from continued corruption 
and Russian propaganda.
    U.S. assistance is strengthening democratic institutions 
and civil society, addressing corruption and improving the 
business regulatory environment and private sector 
competitiveness, especially through assistance to companies to 
enter new markets after a 2014 Russian trade embargo.
    Turning to the Caucuses, in Georgia USAID's programs are 
aimed at economic growth, further U.S. integration--I am sorry, 
EU integration and strengthening civil society, democratic 
governance and independent media.
    Targeted assistance also focuses on improving the 
livelihood and resilience of border communities that are 
particularly vulnerable to Russian pressure.
    In Armenia, we are working with the government and civil 
society to strengthen decentralization and anti-corruption 
reforms and are supporting economic growth.
    Turning to the Western Balkans, we are furthering EU 
integration and strengthening democratic governance and 
economic growth.
    The recent crisis in Macedonia reminds us that we cannot 
take peace and stability in the Western Balkans for granted. 
Let me provide a few highlights of our efforts in the Balkans.
    In Kosovo, USAID recently completed agricultural support 
which led to increased agricultural sales of over $100 million 
and created over 6,000 jobs.
    In Macedonia, USAID supports credible and independent 
reporting through its media fact-checking service. In Fiscal 
Year 2014, the service published almost 900 peer reviews of 
articles, produced over 90 critical disclosure analyses and 
published over 100 journalistic lessons that helped increase 
the media literacy of consumers.
    In Serbia, we are supporting judicial reforms that are 
critical to Serbia's EU accession. USAID's work with six pilot 
courts resulted in reduction of backlogs by 55 percent, 
resolving more than 13,000 cases.
    So in conclusion, Mr. Chairman, in a region facing some of 
its most significant challenges in decades, USAID will continue 
to seek to advance U.S. interests and goals while also 
maximizing our impact and resources.
    The Fiscal Year 2016 budget request recognizes that even 
with competing priorities and difficult budget realities the 
United States must continue to play a critical leadership role 
in this region to achieve the goal of a Europe whole, free and 
at peace.
    I look forward to answering your questions.
    [The prepared statement of Ms. Fritz follows:]
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr Rosenblum.

 STATEMENT OF MR. DANIEL ROSENBLUM, DEPUTY ASSISTANT SECRETARY 
 FOR CENTRAL ASIA, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Mr. Rosenblum. Thank you, Mr. Chairman. I ask that my full 
written statement appear in the record.
    Mr. Rohrabacher. Without objection, so ordered.
    Mr. Rosenblum. Chairman Rohrabacher and members of the 
subcommittee, I am here today to focus on Central Asia and that 
portion of our request.
    Some of Central Asia's most serious challenges such as 
transnational crime, narcotics trafficking, terrorism and 
violent extremism directly affect U.S. national interests and 
require us to work closely with the countries of this region.
    And while U.S. security is directly tied to a stable 
Central Asia, the region's energy resources and transport 
corridors can help drive economic growth that benefits the 
region and the entire world economy.
    So the President's Fiscal Year 2016 request of $155.7 
million, which supports sovereignty, security, good governance 
and economic development in Central Asia, is also supporting a 
safer and more secure United States.
    And this support should also help these countries reduce 
their dependence on Russia or on any other single power. 
Regionally, we are focusing on creating open and secure borders 
while improving economic linkages among the Central Asian 
states and with their neighbors to the south, east and west.
    Our connectivity efforts are organized under what we call 
the new Silk Road initiative and focus on creating an energy 
market, improving trade and transport infrastructure, 
streamlining customs and border procedures and enhancing 
business networks and people-to-people ties.
    We are also working with Kazakhstan to help it join 
Tajikistan and the Kyrgyz Republic as WTO members. And on that 
note, we are insistent that the Eurasian Economic Union 
shouldn't raise barriers to trade nor impair the ability of its 
members to enter into other trade relationships or fulfill 
their international commitments.
    We know that the Central Asian governments' records on 
human rights have been flawed and that improvement is slow and 
inconsistent. Once step forward is often followed by two steps 
back.
    We also know that long-term stability cannot be achieved by 
restricting the free and peaceful expression of political and 
religious views which, as we often remind these countries, is a 
shortsighted and counterproductive strategy.
    So by seeking to build civil society and by promoting the 
rule of law, our assistance seeks to create more space and 
tolerance for peaceful dissent and religious expression.
    It is important to note that while we often speak about 
Central Asia as a monolithic region, in fact nothing could be 
further from the truth. It is five individual countries, each 
with their own unique history, culture, development needs and 
external policies.
    Kazakhstan, with its abundant natural resources and well-
educated younger generation, is the region's largest and most 
advanced economy and shares U.S. priorities in regional 
security, nonproliferation, counterterrorism, energy security 
and climate change.
    Kazakhstan's likely accession to the WTO in a very short 
time from now and its rapidly growing middle class offer many 
new opportunities for U.S. companies. But Kazakhstan's advances 
in the economic sphere have not been matched by the same amount 
of progress in developing a vibrant civil society or strong 
human rights protections.
    So we are working to develop institutions within the 
government and civil society that can advance those goals.
    In the Kyrgyz Republic, democracy's roots are growing 
gradually and we continue to support nascent government 
institutions. The success of economic and political reforms is 
not guaranteed here and we will continue to make the 
investments in good governance that will strengthen this young 
parliamentary democracy's resilience.
    Tajikistan faces severe challenges including economic 
stress and social tension resulting from the decline of 
remittances from Tajik migrants--migrant workers in Russia.
    These remittances sustain the Tajik economy but will 
reportedly decline by at least 20 percent this year. On the 
security side, we are working to enhance the capacity and 
professionalism of Tajikistan's military, border security, law 
enforcement and judicial institutions.
    Turkmenistan also shares a long border with Afghanistan, 
which it has assisted with discounted electricity, humanitarian 
aid and infrastructure development. It also faces significant 
challenges in securing its borders against criminal and 
terrorist activities.
    So our cooperation with Turkmenistan is focused on 
enhancing its ability to maintain secure borders while also 
addressing its restrictions on human rights.
    Finally, Uzbekistan and its geographical position in 
Central Asia make it strategically important for regional 
security. It also shares a border with Afghanistan as the most 
populous country in Central Asia.
    Our priorities are to help Uzbekistan maintain safe and 
secure borders while developing more responsive and open 
institutions.
    Mr. Chairman, despite its significant challenges, Central 
Asia has tremendous potential to become a major nexus for 
global trade and energy flows. Our assistance and diplomacy can 
help achieve this vision, and I look forward to your questions.
    [The prepared statement of Mr. Rosenblum follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for your testimony.
    Mr. Stivers.

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Chairman Rohrabacher, distinguished members of 
the subcommittee, thank you for the invitation to testify today 
on the role of USAID in advancing our foreign policy goals in 
Central Asia.
    It is always an honor to testify before this committee and 
be back in the people's House. President Obama's Fiscal Year 
2016 budget request of $155.7 million for foreign assistance in 
Central Asia reflects a sustained commitment to American 
involvement in the region and the broader area, including 
Afghanistan and Pakistan.
    In Central Asia, USAID is working through three primary 
approaches--one, promoting economic growth and regional 
connectivity; two, tackling development challenges of global 
consequence; and three, supporting democratic governance.
    First, on economic growth and regional connectivity, 
Central Asia is one of the least economically integrated 
regions of the world with intraregional trade accounting for 
less than 5 percent of total trade.
    With little economic opportunity at home, hundreds of 
thousands are forced to migrate in search of work. In 
Tajikistan, Russian-derived remittances account for 50 percent 
of GDP and for neighboring Kyrgyz Republic, it is about a third 
of GDP.
    This year alone, more than 1 million Central Asians will 
return home from Russia without funds or employment prospects.
    USAID is working to expand economic opportunity through a 
dual-pronged approach of promoting domestic reforms to support 
economic growth and regional connectivity efforts. USAID 
focuses on strengthening the business-enabling environment, 
access to market and private sector and agricultural 
competitiveness, and the U.S. Government's new Silk Road 
initiative is key to efforts to bind the region to the markets 
in South Asia through Afghanistan.
    Second, we are tackling the development challenges and 
threats to stability. On global health, some of the highest 
rates of multidrug-resistance tuberculosis in the world are in 
Central Asia.
    The time between testing and diagnosis used to take almost 
a month. Patients had no choice but to return to their 
community as they awaited their diagnosis, thereby risking the 
spread.
    USAID has recently introduced cutting-edge technology from 
California called Gene Expert that diagnoses drug-resistant 
multidrug-resistant TB strains in hours instead of weeks.
    USAID is also partnering on adaptation of Kazakhstan's 
wheat sector. More frequent droughts are a major challenge and 
any reduction in wheat production has significant repercussions 
for regional food security.
    Our efforts include promoting agricultural practices such 
as the use of drought- and heat-resistant wheat varieties and 
forecasting models to inform harvesting decisions and improve 
yields.
    Third, promoting democratic governance and empowering civil 
society is our key priority. Fighting poverty is often less a 
question of funding but also of effectively addressing the 
underlying structural problems with governance that prevent 
many countries from realizing their potential.
    At the core of our engagement across the region are 
empowering reformers who are standing up for human rights and 
fundamental freedoms, all foundational to lasting stability and 
prosperity.
    Next, I will highlight other key assistance areas in the 
five countries of Central Asia. In the Kyrgyz Republic, it is 
the only parliamentary democracy in the region.
    The country has continued to consolidate its democratic 
system with the first democratic transfer of power in Central 
Asia in 2011. The upcoming parliamentary elections this fall 
and the Presidential elections in 2017 will be critical, as the 
system remains fragile.
    Our partnership offers an alternative to the authoritarian 
models in the region. U.S. assistance supports continued 
parliamentary development, judicial reform and consolidation of 
an electoral process that continues to reflect the will of the 
people.
    Tajikistan shares an 800-mile border with Afghanistan and 
is a lynchpin for security and stability in Central Asia. 
Seventy-five percent of Tajikistan's labor force is dependent 
on agriculture for their livelihoods, yet one in four children 
suffer from stunting, which is chronic malnutrition that stunts 
a child's growth in early ages. Boosting agricultural 
productivity is essential to improving lives.
    In Tajikistan's poorest province, the Feed the Future 
initiative helps households increase their production of 
profitable and nutritious crops.
    In Uzbekistan, our assistance contributed to the adoption 
of a judicial code of ethics and expanded defendant rights. 
Uzbekistan is also a source country for human trafficking and 
USAID works to combat the illegal practice.
    In Kazakhstan, we support economic diversification, 
combatting human trafficking, independent media and efficiency 
and transparency of the court system.
    And in Turkmenistan, one of the most isolated states in the 
world, U.S. assistance improves access to outside information, 
education and communication between the government and civil 
society.
    Thank you for the opportunity to share what USAID is doing 
in Central Asia and I welcome any advice, thoughts or questions 
you may have.
    [The prepared statement of Mr. Stivers follows:]
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much, and we will have 
questions from the panel now--from our members.
    Let me just say in general I am a bit concerned. Did the 
words ``radical Islam'' come out of anybody's mouth today in 
testimony? Any of your testimony include a statement that 
included the words ``radical Islam?''
    I don't think I heard that. I heard a lot about Russia and 
being a reason for this and that, this and that, this and that.
    But let me just note that if Central Asia, which is made up 
mainly of Muslim populations, should succumb to the type of 
radical Islamic temptations that people in other parts of the 
Islamic world have succumbed to, we are in big trouble.
    This could be--I personally believe that if General, now 
President el-Sisi in Egypt, is overthrown and it has been very 
difficult for this administration to get themselves to help 
President el-Sisi, that you could have a complete collapse of 
resistance to this radical Islamic terrorist movement in the 
Gulf, which would then perhaps spread next step into Central 
Asia.
    I mean, this could be an historic threat to Western 
civilization. But yet we didn't hear anything about it today 
when we are discussing America's commitment to that region.
    We have--let me ask a little bit about the nature of our 
assistance. When we are talking about $750 million, I guess, to 
Ukraine and $193 million to democracy building, when you are 
talking about democracy building does that--is what we are 
talking about money that we give to NGOs? Is that included in 
this?
    Ms. Fritz. Our assistance varies. Some of it is to NGOs to 
help build their capacity. Most of our assistance goes through 
U.S. contractors and U.S. NGOs that provide technical 
assistance from civil society to----
    Mr. Rohrabacher. Okay. So the answer is yes.
    Ms. Fritz [continuing]. Judicial reform, a whole host of 
areas----
    Mr. Rohrabacher. I got it.
    Ms. Fritz [continuing]. Not just civil society.
    Mr. Rohrabacher. In that--in that host of reforms, do we 
sponsor NGOs that are pushing specific environmental policies 
as well?
    Ms. Fritz. I don't know what you are referring to.
    Mr. Rohrabacher. Environmental policies. Do we have NGOs 
who are suggesting that the countries in pushing to organize 
people within these countries to focus on particular energy 
sources or environmental mandates and restrictions?
    Ms. Fritz. We do not, not that I am aware of. What we do do 
is to work with countries to help them meet EU directives 
related to energy, environment and private sector and their 
energy sector. So EU directives but not anything beyond that.
    Mr. Rohrabacher. Okay. Well, let me note that we just 
recently--I, with a delegation, visited Kosovo and there is 
apparently an American-sponsored NGO that is becoming very 
aggressive in trying to promote certain energy sources.
    And I have met in that area region as well people who are 
talking about NGOs trying to push for what we would call here 
renewable energy resources rather than energy sources that 
perhaps are cheaper for those societies at this particular 
stage in their development.
    And I think that while we all--who would disagree with some 
very positive thing called environmentalism--what is good for 
the environment--there are distinct debates as to what is in 
the long run the best direction to go in terms of renewables 
right now and the developing world.
    Because if you have expenditures for energy that are higher 
now in a developing world that means they don't have other 
money available for education, health care, et cetera, et 
cetera.
    And so if maybe perhaps you could get back to me with a 
list of the NGOs that are engaged with trying to influence 
energy policy under your jurisdictions that would be very 
helpful.
    Ms. Fritz. Yes, sir. We will look into that and get back to 
you.
    Mr. Rohrabacher. And Ms. Romanowski, you wanted to say 
something about that?
    Ms. Romanowski. Well, I did want to add a point--that with 
respect to Kosovo in particular we are supporting broadly their 
energy development and their energy security plans, which do 
include a combination of renewables.
    We are also looking at how they could be building a third 
and more modern coal plant as well as replace the outdated and 
very, very highly-polluting Kosovo A Plant.
    So there are--the energy situation in Kosovo is 
particularly serious and very, very unreliable and we are 
working with Kosovo to develop an energy plan that, clearly, is 
both a short-term and a medium-term objective including all 
types of energy sources.
    Mr. Rohrabacher. I have to admit that it certainly is--we 
need to be involved with helping hands for countries like 
Kosovo and other countries.
    But I think people would resent it here if we had people 
who were being paid by foreign governments to come in and tell 
us what energy policies are best for our country and, you know, 
so Kosovo--this is not an illiterate uneducated group of 
people.
    They should be able to make decisions on their own and it 
seems to me providing that type of pressure, and I know that 
people have--how do you say--have the best of motives in mind 
in all of these areas because this is what they believe is 
good.
    Sometimes, of course, people can disagree with what exactly 
that policy should be but even with that the idea on having the 
United States Government going in, pressuring countries where 
you have populations that are relatively educated populations 
toward these type of policies I think it is something we need 
to think about and be a little bit more retrospective in terms 
of how we would feel if we had people in here from the United 
Nations who now are going to come in and tell us what we are 
going to do in terms of our energy and environmental policies.
    What about social issues? Do we have--are we financing the 
NGOs on different social issues?
    Ms. Fritz. Are you specifically referring to Kosovo or more 
broadly?
    Mr. Rohrabacher. No, generally, in Eastern Europe and in 
Eurasia.
    Ms. Fritz. If you include health care as a social issue, 
yes, we support NGOs who engage in issues related to health 
care.
    Mr. Rohrabacher. Well, the complaints that we have heard is 
that they--that we are defining social issues to include sexual 
type of things and basically policy toward homosexuality, which 
we in the United States we don't believe in people being 
discriminated against for this but in those countries perhaps 
they are culturally different than we are and having our--
pressuring them through our Government to accept certain 
cultural norms like that, I think that in Hungary in particular 
we heard some people complaining that their government was 
being pressured by American taxpayer groups that we are trying 
to get--to force them to change their policy on this which, 
again, should be left up to individual countries to make their 
determination as to what their position would be on gay 
marriage, for example, or even abortion. Any comments on that?
    Ms. Romanowski. Mr. Rohrabacher, our support for civil 
society and for NGOs is very much focused on themes that 
strengthen democratic governance that helps support the reform 
agendas that the people in this region are interested in 
pursuing.
    They are also focused on having laws and values that don't 
discriminate against the peoples in this region and other 
minorities that are in this region.
    So a lot of our work that we do with NGOs and in fact in 
our engagement--diplomatic engagement with the governments in 
the region is to ensure that the laws are free of 
discrimination and in this region.
    So a lot of the work that we do do with NGOs does encompass 
many of the values that we share in this country.
    Mr. Rohrabacher. So the answer is yes, and let me just note 
that I think that trying to push our belief in--from Western 
civilization belief that, for example, most of us don't believe 
that we should have multiple wives.
    You know, you are married to one person, and to have--to go 
to an Islamic country and try to push norms, whether it is 
homosexuality or where it is men-women relationships and things 
like that, I think that we could find it very difficult if 
somebody was coming into the United States with government 
money trying to pressure us in the opposite directions because 
that is what their culture says is the right way to go.
    With limited resources and with the fact that we are 
borrowing every single penny that we give to these countries, 
it might be better for us to prioritize and that telling them 
how to run the social structure in their country should receive 
a lot lower priority than perhaps working with them to build 
their economy and build a more interactive country with us in 
terms of economics and other items like that.
    With that said, I will be very happy to yield to Mr. Deutch 
and what time that he would like to expend.
    Mr. Deutch. Thank you, Mr. Chairman. Before--and thanks to 
all of you for your testimony.
    Just one point I would make at the outset that many of us 
deeply believe that this is not about American norms but that 
LGBT rights and women's rights are human rights and that we 
have an obligation to speak out in support of human rights 
including LGBT and gender equality everywhere in the world. I 
just wanted to get that on the record.
    I have travelled--to our panel I will tell you I have 
travelled a number of times to Europe and to Central Asia, most 
recently last month on a trip to Germany and in my role as 
chair of the Congressional Study Group on Germany.
    It was clear to me in my meetings with members of the 
government, legislators, civil society groups, NGOs that the 
historic and deep transatlantic relationship is appreciated. It 
is respected.
    In many ways, it is revered. But it is not one to be taken 
for granted. And as our attention is frequently diverted to 
crises around the world, I think that we in Congress, the 
administration, the American people have to remember the 
important partnership that we have with our European allies and 
should continue to engage with them on a bilateral basis as 
well as through our multinational organizations like NATO and 
OSCE. It is just not a relationship that should ever be taken 
for granted.
    Now, I would like to focus my questions on the eastern 
Mediterranean region. There are a number of issues that make 
this area one of interest for the United States including 
recent optimism of achieving a reunification deal in Cyprus, 
new energy opportunities in the Mediterranean and last week's 
election results in Turkey and what will result for them.
    Obviously, we are focused on the Greek debt crisis and the 
down-to-the-wire negotiations and others. There is a lot 
happening in that part of the region.
    So just a couple of questions. In looking at the budget, it 
appears that the State Department didn't request any funds for 
Cyprus in the Fiscal Year 2016 budget. The question is does 
State or USAID have any plans to increase involvement and 
support, financial or otherwise, as Cyprus negotiations move 
forward.
    And then to the extent that you can speak to the status of 
reunification negotiations and the role that the United States 
is playing to help reach an agreement, I would appreciate that, 
in particular, how have our USAID and State Department efforts 
contributed to achieving a peaceful settlement. Ms. Romanowski.
    Ms. Romanowski. Yes. Mr. Deutch, on Cyprus we welcome the 
resumption of the settlement talks that started in May and are 
going to--and reaffirm our full support for the U.N.-
facilitated process and we want to be helpful to the parties in 
any way that we can.
    We have encouraged the parties, as they go through their 
talks to reach a settlement as soon as possible, to reunify the 
island as a bizonal bicommunal federation.
    But we, in fact, did not request funding in both Fiscal 
Year 2015 or 2016 as we are facing regional challenges and 
broader global demands on our budget.
    We have had to make difficult choices but we will be 
looking for ways in which we can support the settlement talks 
as they go forward.
    Mr. Deutch. Thanks. I would--I would just like to drill 
down a little bit on one specific issue in Cyprus.
    Last week, Cyprus' commissioner of humanitarian affairs was 
in Washington. I know he met with the State Department, asking 
for U.S. assistance and resolving the issue of missing persons 
in Cyprus.
    Nearly 2,000 people went missing during the intercommunal 
fighting of 1963 to 1964 and then, again, after the Turkish 
invasion of 1974. To this day, most remain missing and it would 
seem that with the promising restart of reunification 
negotiations and the focus on confidence-building measures that 
one of the best confidence-building measures will be for Turkey 
to stop putting up roadblocks like claiming certain areas are 
in occupied Cyprus and are off limits as what they refer to as 
military zones for the search of more than, as I understand it, 
1,400 that remain missing.
    So I know that USAID has provided assistance in the past to 
the Committee on Missing Persons in Cyprus. We have legislation 
that directs the administration to locate five American 
citizens who joined the ranks of the missing in 1974 and so I 
am just--I would like to know what progress is being made to 
open up the military zones and what steps are being taken to 
locate the remaining four American citizens whose remains have 
not yet been found.
    Ms. Romanowski. Mr. Deutch, I appreciate very much your 
question but I would like to take that for the record and 
consult with my other colleagues at the department that are 
real experts on the missing persons issue and get you an answer 
to that question, if that is all right.
    Mr. Deutch. That is okay. I will look forward to receiving 
that response after you have had an opportunity.
    Mr. Chairman, do I have time for one last question or----
    Mr. Rohrabacher. I think I went over my time so you can go 
over your time.
    Mr. Deutch. Thank you. I appreciate that. Just a general 
question.
    If anyone would like to comment on the changes--any changes 
we might expect in Turkey following the recent election in 
which AKP lost a number of--a significant number of its seats.
    Ms. Romanowski. Yes. On the--the United States does look 
forward to working with this newly-elected Parliament and the 
new and the future government.
    We are encouraging them to form a coalition government or a 
new government as quickly as possible and at this point we have 
looked at the--at the elections, that they were general--the 
fundamental freedoms were generally respected.
    Journalists--while journalists and the media were somewhat 
critical of the ruling party and they were subject to some 
pressure and intimidation--there was some violence--we agree 
with the OSCE election observation mission that was in Turkey 
that this is--it was an election that in essence represents the 
elected--the voting representatives in Turkey.
    We do--again, we do await their new government to continue 
to work with Turkey as an important partner in the region on 
many, many regional and global issues.
    Mr. Deutch. Thank you. And thank you, Mr. Chairman, and I 
will look forward to receiving that response to the question 
about the Committee on Missing Persons in Cyprus, and I yield 
back.
    Mr. Rohrabacher. Well, thank you very much.
    We will proceed to the second round, seeing that there is 
only a couple of us here, and I mentioned earlier that I had 
been through the--down in the Balkans on a trip recently and 
one of the points, Ms. Fritz, that I have been trying to make 
is that we--when we talk about aid I am--there is no hesitation 
on my part to commit America to helping people in an emergency 
situation and, certainly, Kosovo, 20 years ago, had an 
emergency situation and they were in conflict and people were 
being killed and there was a--and there are natural calamities 
as well when people have volcanos and all sorts of earthquakes 
and things such as that.
    We have to be willing to help out in those situations. I 
think our humanness of our values certainly would demand that 
of any free people.
    But in terms of aid, as I mentioned in my opening 
statement, that we have to make sure that our aid isn't just 
being used as a means not to have their governments do for 
their people what they are perfectly capable of doing.
    And when I was in Kosovo, I couldn't help but notice that 
there was a new hospital that I actually visited that was built 
totally with private funds from the United States and that the 
government there in Pristina had not given them the permits to 
open even though their hospital they had equipped--there it is 
sitting right there with all of the most modern technology that 
any hospital would have, closed.
    And I don't--you know, whatever the reasons there are 
always--anybody can find a reason not to do something, of 
course, until somebody gets paid off somewhere.
    Now, I haven't heard that they--someone has stepped forward 
with their hand out yet but quite often that happens in less-
developed countries.
    But why should we be giving Kosovo support when they have a 
hospital right there that has been paid for with private 
dollars and that they are not given permits to open?
    Ms. Fritz. The kind of support we provide to Kosovo is 
related to building their capacity. So we are not providing--
first of all, we are not providing assistance in the health 
sector. Second of all, we don't provide funding.
    We provide technical assistance and training to build the 
capacity of the government to do different things whether it is 
in the energy sector, helping private-sector development.
    We help companies to be able to compete on the European 
market to export their products to European countries.
    Mr. Rohrabacher. We are not giving them any help in the 
health care area at all?
    Ms. Fritz. No.
    Mr. Rohrabacher. Okay.
    Ms. Fritz. Sir, we also provide assistance related to 
democratic institutions. We support civil society.
    Mr. Rohrabacher. Right.
    Ms. Fritz. We support a range of----
    Mr. Rohrabacher. So would you suggest that if someone is 
involved with a humanitarian effort like--this is--it better be 
the White House. Hold on. Mr. President, I am in the middle of 
a hearing. I am sorry. I can't take the call right now. I have 
no idea who that was.
    But so you would believe that when the--a country that we 
are helping in a variety of areas does something like--for 
example, does not give the permits necessary for a private 
sector hospital to open up that this would be considered a 
health care issue and not a rule of law issue?
    Ms. Fritz. It certainly could be both, and what I meant to 
say was that USAID is not currently engaged in this issue. We 
can consult with the Embassy and find out more information for 
you, sir.
    Mr. Rohrabacher. Let me suggest that we should--go right 
ahead, Ms. Romanowski.
    Ms. Romanowski. I just wanted to add a very important point 
that I think we share also your concern for access to quality 
health care and we recognize that this is an issue that is 
problematic.
    And our Ambassador, in fact, has been working this issue 
with the Kosovo Government along with the private sector to try 
and resolve this issue. In fact, she met with the prime 
minister last week.
    So it is definitely an issue on our radar that we are 
focusing on to, again, make sure that that hospital can 
function the way it was intended to.
    Mr. Rohrabacher. Well, I realize the Ambassador is paying 
attention because I think that we brought her with us to go to 
the tour of the--of that hospital.
    I would suggest that if Kosovo or other countries are 
unwilling to step forward--now, this--to me, this is a 
potential corruption issue because so often what happens is 
people don't get permits until they have paid somebody off. But 
I have not heard specifically of any demand yet.
    But even without that factor, if people expect to have us 
subsidize various activities in their country while they are 
engaged in that type of thing with an American citizen who has 
put money into it, I think it demands us more than just to say 
something but it demands us to do something, which I would--I 
will be watching very carefully to see if the State Department 
does more than just talk about it after--this hospital isn't 
open.
    It has already been 6 months since we were there. So that 
hospital is just sitting there while people in that country, 
especially--by the way, it was especially designed to help 
women--women in that city to get the proper care that they 
need--and if that is going to remain closed I think we should 
consider some type of pulling back in some of these other 
areas, perhaps even pulling back from our trying to pressure 
them to have the type of energy development that we think is 
best for them rather than perhaps what they think is best for 
them.
    And about Ukraine, and I guess--I guess Mr.--Ms. 
Romanowski, I think this would be for you but I am not sure if 
the others--this fits them.
    Could you give me a frank assessment of--because we have 
been talking a lot about Ukraine here, and let me just note for 
the record there is nothing that could help Ukraine more in 
their building their economy is to help bring peace between 
Russia and Ukraine.
    When Ukraine or any other country invests in military 
equipment, we are there investing in things that blow up rather 
than things that create more wealth.
    Military spending and providing debt to a country in order 
to finance an unnecessary conflict is a horrendous burden on a 
country that is in debt and I think it is--frankly, I think we 
should be doing more in trying to find a compromise and a 
solution, perhaps in helping--even having more talks about the 
Minsk agreements that have been reached on a pathway to get 
them back--to back off from this conflict.
    But one of the unknown factors or unseen factors here in 
the United States is the role that oligarchs have been playing 
in creating the situation that now exists.
    A large portion of the Ukrainian army has been financed by 
a couple of oligarchs. These are private sector people who have 
military personnel out and which--with tanks and cannons and 
all the rest.
    Could you give us any type of an assessment of whether or 
not the--this new President Poroshenko has been successful at 
de-oligarching his government and his society?
    Ms. Romanowski. Mr. Chairman, let me say a few words about 
that. I think the government of the current and new Government 
of Ukraine has made some significant progress in undertaking 
reforms across many sectors in their society that will--that 
will, again, address some of the issues that you are talking 
about.
    It is a long--they have--and I will speak to some of the 
reforms in a minute but it is a long-term process. There are--
they have made some very important reforms.
    The Rada has passed some significant legislation that goes 
to anti-corruption and rule of law. We are working with them 
through a series of advisors in the government ministries, 
again, to help both implement reforms and to focus on the kinds 
of reforms that are needed across a number of sectors.
    It will take a significant amount of time and it certainly 
will require the full support of the Ukrainian people.
    With respect to the efforts that they are on the Minsk 
commitments, currently we are very much encouraging and 
supportive of the trilateral contact group that is designed to 
bring all the parties together to talk about implementing the 
Minsk agreement.
    And this is a very important component of being able to 
make sure that Ukraine can continue its commitment to democracy 
and to reforms and also to push back against Russian pressure 
on the--and the presence of Russian involvement in eastern 
Ukraine.
    They do have a near-term economic crisis, which we have 
helped as well as the IMF and others to stabilize, so that they 
can continue to implement the reforms that they want to do to, 
again, build a stronger and prosperous country that isn't 
affected and can push against the Russian pressure that is 
going on right now.
    Mr. Rohrabacher. Well, this all started when--over an 
economic crisis in which President--the elected President, 
Yanukovych, went for assistance to the EU and the deal that he 
received from them he did not believe was equivalent or near 
what the Russians were offering and that led to--step by step 
into a situation of conflict today.
    And I would hope that we can take step by step back from 
that and the first step in that is to try to stop the actual 
physical fighting between the Ukrainians and the separatists 
and especially the withdrawal of the Russians of any people 
they have in the eastern Ukraine and hopefully that can be part 
of the same deal.
    But we need to--we need to focus a lot on peace rather than 
simply subsidizing the current status quo, which is leading 
them into the gates of Hell.
    We now have--Ms. Frankel has joined us and if you have some 
questions for the panel you are certainly welcome to take your 
5 minutes right now.
    Ms. Frankel. Thank you very much, Mr. Chair.
    And I wanted just to follow up on a comment of one of our 
witnesses, and thank you all for being here. Over the weekend, 
our Ambassador to the Ukraine, Geoffrey Pyatt, summed up 
concerns that I think a lot of us have and he said there is no 
issue that is a greater threat to Ukraine's long-term success 
today than the institutionalized corruption. It is a bigger 
threat than Russian tanks.
    I don't know whether you are familiar with that or whether 
you agree with that. But in reference to that, I would like to 
ask this.
    First of all, do you have an opinion as to whether this 
long-term corruption issue in Ukraine so undermined the 
Ukrainian Government and the confidence of the people that set 
a stage for the Russian aggression--whether that is related at 
all.
    And can you tell me how--I guess is it USAID that is 
doing--that is working on the corruption issue? Can I get some 
details on that?
    Ms. Fritz. Sure. I can talk about our programs. Is that 
what you were interested more about--our assistance? So----
    Ms. Frankel. But I would also like to hear the cause and 
effect, if you have an opinion to that.
    Ms. Fritz. So maybe I can talk about assistance and Alina 
might take the cause and effect. So our assistance--what we 
have done is when we design every new project we look at how we 
can build in an anti-corruption component.
    So, for example, we are working with the judiciary. We are 
working in education, pharmaceutical procurement, e-governance 
permitting, financial disclosure in energy and all of those 
each have an anti-corruption component.
    In assessing how the Ukrainian Government is doing, they 
have passed more than a dozen key pieces of legislation that 
address corruption including establishing legislation to 
establish the National Anti-Corruption Bureau as well as the 
National Anti-Corruption Prevention Agency and the bureau is 
moving forward in terms of being stood up with a budget and 
staff and so forth.
    The prevention agency--they are just in the process of 
appointing a director of the agencies or setting up the 
committee to appoint the director. The prevention agency will 
be really important in terms of addressing financial disclosure 
and monitoring that of public sector employees of which there 
are over 900,000.
    Another area in which USAID has been involved is working on 
doing risk assessments for corruption of government agencies. 
So we have done two--one with the Securities Commission, 
another with the Deposit Insurance Company--and those identify 
areas that are at risk within those agencies for corruption and 
then an action plan to start addressing them.
    Moreover, we have given the methodology to or we are in the 
process of giving it to the Ukrainian Government so that they 
can do it across the government to start addressing some of 
these issues holistically across the government.
    We have judicial reform programs as well as programs that 
support civil society. What I would point to post-Maidan is 
that civil society was energized by Maidan and remains engaged 
in pressuring the government on reforms. They are monitoring.
    I was just there last week, met with a group of key NGOs 
and they are continuing their pressure on the government to 
reform. So it is from both sides that this is happening and 
will continue.
    Lastly, I asked a question of the group last week whether 
they have seen progress in the year since Maidan in terms of 
corruption and what they reported was public sector corruption 
it is noticeably less than it was a year ago and they were 
energized and inspired that this will continue. So I think 
Ukraine has a long way to go but we have seen some progress.
    Ms. Romanowski. Ms. Frankel, let me try and answer your 
question about whether corruption and how this all happened. I 
really am not in a position to really speculate on what 
prompted Mr. Putin to violate another country's sovereignty and 
territorial integrity.
    So I think I will leave it at that for the moment. But what 
I will say about corruption and how it can erode a country's 
stability, it can limit its prosperity and it really does 
inhibit the responsive democratic pathways that populations 
would like.
    It undercuts its economy and it undercuts the expression 
and the ability of citizens in their country to express their 
values and where they want to take their country.
    On the corruption piece, for us and as my colleague, Susan 
Fritz, has said, fighting corruption is very much an integral 
part of our longstanding goal of Europe whole, free and at 
peace.
    It is not just in Ukraine. It is across the region. So that 
in fact that countries outside and external pressures such as 
Russian pressure don't have the impact and don't have the 
ability to get in and begin to meddle in the situation and into 
a country's economy or politics or elsewhere.
    Like my colleague at USAID, going to Ukraine was one of the 
first visits I made in this new--in this new job and I was--I 
was struck when I talked to NGOs and even new government 
officials how important for them it was to tackle the issue of 
corruption in Ukraine and how the reforms that they were 
undertaking and the long, long list of other reforms that they 
had to undertake was going to be a long-term effort and a 
commitment.
    They recognized how difficult this might be and how it 
required convincing others in their society to make these 
difficult reforms that initially could have a significant 
impact on the--on the economy or on the--or on the livelihoods.
    But at the end of the day, every single Ukrainian I talked 
to recognized that they needed to embark on serious reforms to 
get on to the democratic path and to continue their integration 
into Europe.
    Ms. Frankel. Just--Mr. Chair, if I just may follow through. 
I did not mean to infer that the corruption was an excuse to 
Putin.
    I--my inference was that it weakens the resistance of the 
country and the people in the country when they don't have 
confidence in the government and the government is not working 
correctly. It can lay a predicate for a terrorist group or--I 
know what you are going to call Mr. Putin--an aggressor to come 
in.
    Ms. Romanowski. And I think that the--what we are seeing 
now is the Ukrainian people want to see reforms happen fast and 
quick, and as we all know, in some cases it takes a while to 
get those done.
    Ms. Frankel. Thank you very much.
    Mr. Rohrabacher. Thank you to the panel. Just a few more 
thoughts about the--just sort of take up where the conversation 
ended. I think the corruption issue is the direct--is the 
direct cause for the problems that are in Ukraine today, not 
just their economic situation but this military confrontation 
that they have.
    I remember seeing Kuchma and I was there during the Orange 
Revolution and I actually supported the kids down in the square 
and went into their tents with them and everything.
    And, of course, they got rid of Kuchma, the last of the 
Soviet leadership of Ukraine, and we got Yushchenko is, I 
believe, then came in after the Orange Revolution and he was 
married to Kathy Chumachenko, worked with me in the Reagan 
White House.
    Thought, oh boy, we got some Western people there now who 
are committed to better government, and the people, in fact, in 
Ukraine have been convinced that Yushchenko--and, 
unfortunately, his--all of his cohorts were as corrupt as they 
had with Kuchma and were so disillusioned that they ended up 
voting for Yanukovych, who was the pro-Russian candidate at the 
time.
    And then Yanukovych, of course, to suggest that he was any 
less corrupt than anybody else would be just wrong because what 
the people of the Ukraine have had is government after 
government after government coming in, with the hope of the 
people that new government is going to be a noncorrupt 
government and they got some hope and, frankly, Yanukovych was 
just as corrupt as his predecessors, probably more corrupt.
    And when they--thus, when he did not get the deal that he 
was looking for to help the Ukraine's--the Ukraine's economy 
from the--from their Western European friends who have to, 
again, like Merkel has suggested, had they treated Yanukovych 
differently we might not have had this confrontation with 
Russia going on.
    But Yanukovych ends up going to Putin, getting the 
agreement--a better agreement than what the European Union was 
offering--but the people of his country, because they have 
learned that corruption is the way of life of these--of their 
leadership, assumed that they--the country was being sold out 
to Russia probably for personal gain for their--for their 
President and that is when this violence erupted in that 
society.
    And let us just hope--I mean, this is a horrible situation 
in Ukraine and we need to--I think the first step is, number 
one, do everything we can to stop the actual fighting and get 
the people disengaged with spending because every day of 
fighting is the expenditure of millions of dollars that are 
drains on that economy and also it hurts the people there and 
people lose their lives.
    So just--that is just a thought and but I got one last 
issue I would like to bring up before we close and--unless Ms. 
Frankel has another comment.
    I have--this is, Mr. Rosenblum, about--this is back to my 
central point that I didn't hear anybody mention radical Islam.
    I keep hearing people mention Russia, Russia, Russia. But 
radical Islam is, to me, the major threat we must face today. 
Just like when the Soviet Union was in, that was the major 
threat and other things were secondary.
    Well, I believe, as I mentioned earlier, that we could have 
radical Islamic terrorists taking over various governments in 
Central Asia and I understand that we trained--in Tajikistan 
they trained their special forces commander, who recently 
defected to ISIL and is now actively involved in trying to 
accomplish the ISIL gains in Central Asia and whatever the ISIL 
is long term trying to do. Is that correct?
    Mr. Rosenblum. Mr. Chairman, I think you are referring to 
the case of Mr. Khalimov, who was the commander of the Oman 
special forces, which is the interior ministry special forces 
in Tajikistan----
    Mr. Rohrabacher. Right.
    Mr. Rosenblum [continuing]. Who, I guess it was 2 or 3 
weeks ago appeared in a video where he announced that he had 
joined ISIL.
    Mr. Rohrabacher. Right. Defected.
    Mr. Rosenblum. That is correct--defected. And so this 
case--it actually so happens, coincidentally, that today a 
delegation from the Government of Tajikistan is here in 
Washington for our annual--what we call the annual bilateral 
consultations between our two governments.
    Not surprisingly, this particular case has come up in the 
conversation although it is covering the whole broad range of 
our relationship with Tajikistan.
    So we--this is a case that, obviously, was--came as a 
surprise to us and that we are very concerned about and what 
its ramifications are.
    The--Mr. Khalimov came up through the ranks of the interior 
ministry before he became the commander and during that period 
of about a decade did participate in several U.S. training 
courses--I think about five training programs sponsored under 
our anti-terrorism assistance program.
    The way those programs work, as you probably know, Mr. 
Chairman, is that the attendees are selected by the government 
of the country and then they go through a vetting process that 
is sometimes informally referred to as the Leahy vetting, which 
is basically seeing whether the selected participant was 
involved in any gross violations of human rights in their own 
country.
    And in terms of that vetting, this person, Mr. Khalimov, 
passed our vetting. But I just want to emphasize that he was--
he was selected by the government, which is the normal way that 
these things work.
    It is hard to predict these sorts of things and actually 
there was a hearing last week that I participated in on exactly 
this issue of recruitment of foreign terrorist fighters from 
Central Asia.
    Mr. Rohrabacher. Right.
    Mr. Rosenblum. Of course, this case came up as well, and I 
was asked a similar question about Mr. Khalimov. It is hard to 
predict how these cases come up. As I said there and I will say 
here again, we are continuing to look at our procedures for 
conducting these training courses.
    We are always going to be dependent on selection by the 
governments to a large extent, of course, of the participants. 
But we are looking if there are any ways to do additional 
screening that might help us to avoid future cases like this.
    Mr. Rohrabacher. Well, I would hope that this particular 
incident is a wake-up call for all of us about Central Asia. We 
should not be taking Central Asia for granted--that, indeed, 
once radical Islam, if they are successful in the Gulf and then 
they manage to spread to the other areas in northern Africa and 
into Central Asia, we will be involved with an historic shift 
of power on this planet that will plague us and plague mankind 
and humankind for generations to come.
    And this is--the fact that in Tajikistan you have someone 
like this defecting over to the most radical elements of Islam 
should tell us that we need to pay attention there and not 
take--and not focus totally, our whole efforts, on Russia's 
dispute within Ukraine, although we need to make sure that 
Russia has got the message that we do not believe that it was 
right for them to go in to--even if they had--Yanukovych was 
overthrown or whatever, there was no excuse for them to come in 
with their troops and that should not have happened.
    But with that said, we have a lot of other challenges to 
face in which the Russians could possibly play a positive role 
in if we can get the situation in the Ukraine settled.
    So with that said, Mr. Deutch, you have whatever time you 
would like.
    Mr. Deutch. Just--I only need a couple seconds. I wanted to 
come back in just to ask that our panelists take back from me 
and, I know, from those of us on this committee who have had 
the opportunity to travel to places like Tashkent and Dushanbe 
and Bishkek that we have really great appreciation for the work 
that State and our diplomatic corps and that our USAID workers 
do in these places--that it can't be taken for granted that 
for, unlike many parts of the world, for most of the people in 
Bishkek, for example, what they know about the United States is 
what they learn from their contact with the person from the 
Embassy who goes out and reads to kids, runs programs--what 
they do to stand for this country and our values and advance 
our interests.
    By being willing to spend a few years representing this 
country in those places means a great deal. They should be 
commended for it and I would ask you to take that message back 
to them.
    Mr. Rohrabacher. Mr. Deutch, I would like to thank you for 
coming back to make that expression. I think that reflects we 
are a partnership here.
    You know, this is--we are trying--all trying to do our best 
to make sure our country is served well and we are--and the 
message that Mr. Deutch gave of that gratitude for the role 
that you play it goes for both sides of the aisle.
    So thank you very much. I declare this hearing adjourned.
    [Whereupon, at 3:37 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
